<html>
<title> - GAO'S STUDY OF THE NATIONAL PARK SYSTEM</title>
<body><pre>[Joint House and Senate Hearing, 104 Congress]
[From the U.S. Government Publishing Office]


                                                          
                                                                 S. HRG. 104-83
 
                               GAO'S STUDY OF THE NATIONAL PARK SYSTEM                                                                       
  ______________________________________________________________________________________________   
  
                                         JOINT HEARING
                                                
                                           BEFORE THE   
                                            
                                     SUBCOMMITTEE ON PARKS,
                            
                              HISTORIC PRESERVATION AND RECREATION                  
                                                                                                                                                           
                                           OF THE
                                            
                                     SENATE COMMITTEE ON           
                                            
                                 ENERGY AND NATURAL RESOURCES   
                                 
                                          AND THE
                                          
                                       SUBCOMMITTEE ON      
                                          
                               NATIONAL PARKS, FORESTS AND LANDS   
                               
                                            OF THE
                                               
                                  HOUSE COMMITTEE ON RESOURCES               
                                             
                                  ONE HUNDRED FOURTH CONGRESS                                 
                                     
                                         FIRST SESSION
                                          
                                           OF THE    
                                              
                             GENERAL ACCOUNTING OFFICE'S STUDY OF THE
                                      NATIONAL PARK SYSTEM             
                                          
                                         ___________            
                          
                                                                     
                                        MARCH 7, 1995
                                        
                                                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
                               Printed for the use of the
                    Senate Committee on Energy and Natural Resources and
                            the House Committee on Resources   
                            
                 
                                         _______
                                         
                               U.S. GOVERNMENT PRINTING OFFICE
                                                              
  92-260 CC                            WASHINGTON : 1995
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-47456-6
                                 
                                 
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
